Audit Report




OIG-12-032
Management Letter for the Audit of the Bureau of Engraving and
Printing’s Fiscal Years 2011 and 2010 Financial Statements
December 19, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 19, 2011


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                           BUREAU OF ENGRAVING AND PRINTING

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the Bureau of Engraving
                                  and Printing’s Fiscal Years 2011 and 2010 Financial
                                  Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Bureau of Engraving and Printing’s (BEP) Fiscal Years 2011 and 2010
            financial statements. Under a contract monitored by the Office of Inspector
            General, KPMG LLP, an independent certified public accounting firm, performed an
            audit of the financial statements of BEP as of September 30, 2011 and 2010, and
            for the years then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE
            Financial Audit Manual.

            As part of its audit, KPMG LLP issued, and is responsible for, the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operations that were identified during the audit but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits,
            at (202) 927-5407.

            Attachment
THE DEPARTMENT OF THE TREASURY

   BUREAU OF ENGRAVING AND
           PRINTING




          MANAGEMENT LETTER
 FOR THE YEAR ENDED SEPTEMBER 30, 2011
           DECEMBER 14, 2011
                                           BUREAU OF ENGRAVING AND PRINTING
                                                 MANAGEMENT LETTER
                                         FOR THE YEAR ENDED SEPTEMBER 30, 2011

                                                            TABLE OF CONTENTS




MANAGEMENT LETTER ................................................................................................................................. 1

APPENDIX A ............................................................................................................................................ A-2

           Untimely Reconciliation of National Finance Center (NFC) Records to Payroll Records ........... A-2
           Unsupported Percentages Utilized in the Inventory Obsolescence Calculation ........................... A-2
           Criteria for Management’s Review of Financial Statements is Undefined .................................... A-3
STATUS OF PRIOR YEARS’ RECOMMENDATIONS ...................................................................................... B-1
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




December 14, 2011

The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the financial statements of the Bureau of Engraving and Printing (the Bureau), as
of and for the year ended September 30, 2011, and have issued our report thereon dated December
14, 2011. In planning and performing our audit of the financial statements of the Bureau, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. We have
also examined management’s assertion that the Bureau maintained effective internal control over
financial reporting as of September 30, 2011, and have issued our report thereon dated December
14, 2011.

During our audit, we noted matters related to internal control and other operational matters that are
presented for your consideration in Appendix A to this report. These comments and
recommendations, all of which have been discussed with the appropriate members of management,
are intended to improve internal control or result in other operating efficiencies. Management’s
response to these comments and recommendations are included in Appendix A. We did not audit
the Bureau’s response and, accordingly, we do not express an opinion on them.

Our audit procedures were designed primarily to enable us to form an opinion on the financial
statements and to form an opinion on management’s assertion and, therefore, may not bring to
light all weaknesses in policies and procedures that may exist. We aim, however, to use our
knowledge of the Bureau’s organization gained during our work to make comments and
suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at your request.

This report is intended solely for the information and use of the Department of the Treasury’s
Office of Inspector General and management of the Bureau, and is not intended to be and should
not be used by anyone other than these specified parties.

Very truly yours,




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                                     Appendix A




Untimely Reconciliation of National Finance Center (NFC) Records to Payroll Records

The Bureau has an unwritten policy to perform and approve reconciliations between both the
hours worked and accrued leave processed by NFC and the amount of hours worked and accrued
leave reflected in the Bureau’s payroll records for a random sample of 25 employees each pay
period. Additionally, the unwritten policy also has the Bureau’s reconciliation reviewed by
supervisory personnel. Bureau personnel responsible for performing the reconciliation for the pay
period ending October 9, 2010 did not bring to a final resolution differences noted for two of 25
employees sampled by the Bureau. Further, the reconciliation was not signed by the preparer
until January 20, 2011. The primary employee responsible for performing the supervisory review
of the reconciliation was out of the office due to a long-term illness. In addition, Bureau
supervisory personnel responsible for reviewing the October reconciliation did not complete the
reconciliation of the two employees in question and their review of the reconciliation until July
27, 2011.

Office of Management and Budget (OMB) Circular No. A-123, Management Accountability and
Control, Section II: Establishing Management Controls, states the following: “Transactions
should be promptly recorded, properly classified and accounted for in order to prepare timely
accounts and reliable financial and other reports. The documentation for transactions,
management controls, and other significant events must be clear and readily available for
examination.”

The Bureau does not have formal policies and procedures for completing reconciliations over
payroll data submitted to the NFC and related supervisory reviews in a timely manner. The
untimely review and reconciliation of timesheets between the Bureau and the NFC affects the
ability of the Bureau to have reliable and timely information over its payroll expenses. The
inability to accurately determine if payments made to employees are correct, could lead to a
potential misstatement of payroll expense.

We recommend the Bureau develop and implement written policies and procedures to ensure that
timely reconciliations are performed over payroll data submitted to the NFC. Additionally, the
Bureau should ensure that these reconciliations are reviewed and that there are individuals
designated and trained to perform this reconciliation in case the primary employee responsible for
performing the control is absent.

Management Response:

Management concurs with the recommendation. BEP Management will review its current
policies and procedures and make adjustment, where necessary, to ensure the timely review of
reconciliations performed over payroll data.

Unsupported Percentages Utilized in the Inventory Obsolescence Calculation

The Bureau calculates a provision for Inventory Obsolescence, for each type of raw material or
spare part, based on the number of days since the specific spare part or raw material had been
used. The Bureau applies percentages to the balance of each type of raw material or spare part in
order to determine the provision for Inventory Obsolescence. The Bureau has not reassessed the



                                               A-2
                                                                          Appendix A, continued


accuracy of these percentages since fiscal year 2008 and could not provide documentation
supporting the determination of the percentages used.

OMB Circular No. A-123, Management Accountability and Control, states: “Transactions should
be promptly recorded, properly classified and accounted for in order to prepare timely accounts
and reliable financial and other reports. The documentation for transactions, management
controls, and other significant events must be clear and readily available for examination.”

The Bureau does not have a policy or procedure in place to reassess the reasonableness of the
obsolescence percentages being applied to the raw material and spare parts inventories on a
periodic basis. Without periodically reviewing the reasonableness of these percentages, the
Bureau may be applying inaccurate inventory obsolescence percentages which could result in a
misstatement of inventory and expenses in the annual financial statements.

We recommend the Bureau develop and implement policies and procedures to reassess the
obsolescence percentages applied to the raw material and spare part inventories on an annual
basis, and ensure documentation is maintained to readily support the percentages used.

Management Response:

Management concurs with the recommendation. BEP management will evaluate, update, and
document the obsolescence percentages applied to the raw material and spare parts inventories on
a more frequent basis, as deemed necessary.

Criteria for Management’s Review of Financial Statements is Undefined

The Bureau’s control activities include a monthly review of the financial statements by managers
within the Office of Financial Management and the Chief Financial Officer. In addition, the
Bureau’s annual financial statements are reviewed by the Accounting Manager, the Chief
Financial Officer, and other senior members of management. During our audit we noted that
Bureau personnel responsible for reviewing the financial statements on a monthly and annual
basis do not have established criteria (e.g. dollars and/or percentage thresholds for investigating
variances from expected balances) that are consistently followed when conducting such reviews.
In addition, the Bureau currently does not have formal policies and procedures that provide
guidance on the establishment of such criteria as well as the process for documenting the
performance of this review.

OMB Circular No. A-123, Management Accountability and Control, Section II: Establishing
Management Controls, states the following: “Management controls developed for agency
programs should be logical, applicable, reasonably complete, and effective and efficient in
accomplishing management objectives.”

Without established criteria used to assess the reasonableness of financial statements prepared on
a monthly and annual basis, a management review control over financial statements may not be
designed effectively to detect and correct a material misstatement in the Bureau’s financial
statements. Additionally, without formal policies and procedures surrounding the performance of
such management reviews, there is an increased risk that such reviews will not be consistently
executed.




                                               A-3
                                                                         Appendix A, continued


We recommend that the Bureau develop and implement policies and procedures over
management’s review of the Bureau’s monthly and annual financial statements that describes the
criteria used to assess the reasonableness of those financial statements.

Management Response:

On a monthly and annual basis BEP management reviews the financial statements. The previous
review criteria were determined by the individual performing the review and their specific area of
responsibility. To add rigor to this review and build a level of consistency, BEP management will
review all un-natural balances and any variance in the financial statement line item balances that
is greater than $10 million or 10% from the previous period. For balance sheet accounts this
variance will be based on the current month to the prior month and current month to the same
month in the prior year for income statement accounts.




                                               A-4
                                                                                 Appendix B




              STATUS OF PRIOR YEARS’ RECOMMENDATIONS

             Recommendation                                       Status
Lack of Documentation for a Spare Part
Issuance

We recommend that the Bureau review policies
and procedures in place over spare parts
                                                 No exceptions related to spare part
issuances and ensure that they include
                                                 issuances were identified in current year
documentation retention guidelines. The
                                                 testing.    We         consider       this
Bureau should also ensure the policies are
                                                 recommendation closed.
being implemented properly and consistently
by monitoring their operation.

Ineffective Monitoring of the Security Hotline
                                                 Management determined that the Bureau
                                                 Security Hotline is no longer needed as
We recommend that the Bureau reinforce           the Department of Treasury’s Office of
procedures regarding proper monitoring of the    Inspector General Hotline is available
hotline. Management should also establish        and fulfills the intended purpose of the
controls to ensure that review of existing       agency’s hotline. No Treasury Hotline
procedures is properly executed.                 exceptions were identified in current
                                                 year testing. We consider this
                                                 recommendation closed.
Failure to Record a Fixed Asset Disposal
We recommend that the Bureau implement
internal controls to monitor and record the      No exceptions related to the disposal of
disposal of fixed assets. Management should      assets were indentified in current year
also require all disposals be communicated to    testing. Additionally, no unreported
and reviewed by the appropriate OFM              disposals were identified during our
personnel immediately after approval, and        observation of fixed assets. We consider
establish proper controls to ensure such         this recommendation closed.
notifications are occurring timely.
Lack of Acknowledged Receipt of Code of
Conduct
We recommend that the Bureau develop
policies and procedures regarding employee
receipt and acknowledgment of the code of        No       exceptions      related       to
conduct. Management should also establish        acknowledgement of receipt of code of
controls to ensure that files are properly       conduct for new hires were indentified in
maintained     to     include     employee       current year testing. We consider this
acknowledgements of the code of conduct and      recommendation closed.
any subsequent updates to the previously
employee acknowledged code of conduct.




                                           B-1
